         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Must Implement Controls to 

       Ensure Proper Investigations Are 

       Conducted at Brownfields Sites 

       Report No. 11-P-0107

       February 14, 2011
Report Contributors:                           Carolyn Copper
                                               Jee Kim
                                               Angela Bennett
                                               Barry Parker
                                               Andre von Hoyer, II
                                               Tina Lovingood




Abbreviations

AAI          All appropriate inquiries
ARRA         American Recovery and Reinvestment Act of 2009
CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
CFR          Code of Federal Regulations
CNMI         Commonwealth of the Northern Mariana Islands
EP           Environmental professional
EPA          U.S. Environmental Protection Agency
OBLR         Office of Brownfields and Land Revitalization
OGC          Office of General Counsel
OIG          Office of Inspector General
OSWER        Office of Solid Waste and Emergency Response
PO           Project officer
RCRA         Resource Conservation and Recovery Act
                       U.S. Environmental Protection Agency 	                                              11-P-0107
                                                                                                    February 14, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            EPA Must Implement Controls to Ensure Proper
                                  Investigations Are Conducted at Brownfields Sites
We conducted this review to
evaluate how the U.S.
                                   What We Found
Environmental Protection
Agency (EPA) is ensuring that
                                  EPA does not review AAI reports submitted by grantees to assure that they
Brownfields Assessment
                                  comply with federal requirements. Rather, EPA has relied on the environmental
grantees adhere to all
                                  professional conducting the AAI to self-certify that requirements are met. Of the
appropriate inquiries (AAI)
                                  35 AAI reports we reviewed, from three EPA regions, none contained all the
requirements.
                                  required documentation elements. This occurred because the Agency does not
                                  have management controls requiring EPA project officers to conduct oversight of
Background
                                  AAI reports. Management controls regarding EPA oversight of Brownfields grants
                                  funded by the American Recovery and Reinvestment Act of 2009 (ARRA) are
Grantees awarded EPA
                                  also missing. EPA has issued specific guidance and management controls for
Brownfields Assessment
                                  ARRA grant activities. However, the guidance and controls do not address
grants must meet AAI
                                  oversight of AAI reports.
requirements. AAI is the
process of evaluating a
                                  Because of EPA’s lack of oversight and reliance on environmental professionals’
property for potential
                                  self-certifications, AAI investigations not meeting federal requirements may go
environmental contamination
                                  undetected by Agency staff. The Office of Inspector General found instances of
and assessing potential
                                  noncompliance that were not detected by Agency staff. Improper AAI
liability for contamination. To
                                  investigations introduce risk that the environmental conditions of a property have
ensure a proper investigation,
                                  not been properly or adequately assessed, which may lead to improper decisions
grantees must conduct AAI in
                                  about appropriate uses of brownfields properties. Ultimately, threats to human
compliance with federal
                                  health and the environment could go unrecognized.
regulations put into effect by
EPA on November 1, 2006,
                                  Noncompliant AAI investigations may result in future grant denials and possible
and issue a report on findings.
                                  government reimbursement. The AAI reports the OIG reviewed were generated
                                  from $2.14 million in grant awards. If conditions merit, EPA is authorized to take
                                  back funds from noncompliant grantees. The OIG questions the value of the
                                  reports we reviewed.

                                   What We Recommend
For further information,
contact our Office of             We recommend that EPA establish accountability for compliant AAI reports, to
Congressional, Public Affairs
and Management at
                                  include those conducted under ARRA Brownfields grants; develop a plan to
(202) 566-2391.                   review AAI reports to determine the reports’ compliance with AAI documentation
                                  requirements; and establish criteria to determine whether noncompliant grantees
The full report is at:            should return federal grant money. The Agency did not clearly agree or disagree
www.epa.gov/oig/reports/2011/     with OIG recommendations. In its final response to the report, the Agency needs
20110214-11-P-0107.pdf
                                  to agree or disagree with recommendations and, as appropriate, provide a
                                  corrective action plan to address the recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                        February 14, 2011

MEMORANDUM

SUBJECT:	              EPA Must Implement Controls to Ensure Proper Investigations
                       Are Conducted at Brownfields Sites
                       Report No. 11-P-0107


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:	                   Mathy Stanislaus
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
evaluation of Brownfields Assessment grantees and their adherence to all appropriate inquiries
requirements and corrective actions that the OIG recommends. This report represents the opinion
of the OIG and does not necessarily represent the final EPA position. Final determinations on
matters in this report will be made by EPA managers in accordance with established resolution
procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, is $519,875.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the report date. Your 90-day response should include
agreement or disagreement with OIG recommendations and appropriate corrective actions, along
with estimated or actual milestone completion dates for all recommendations. Your 90-day
response will be posted on the OIG’s public website, along with our comments on your response.
Your response should be provided in an Adobe PDF file that complies with the accessibility
requirements of section 508 of the Rehabilitation Act of 1973, as amended. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General, at (202) 566-0832 or najjum.wade@epa.gov; or Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov.
EPA Must Implement Controls to Ensure Proper                                                                                   11-P-0107
Investigations Are Conducted at Brownfields Sites



                                      Table of Contents 

   Purpose........................................................................................................................    1        


   Background .................................................................................................................       1        


   Noteworthy Achievements .........................................................................................                  2        


   Scope and Methodology.............................................................................................                 3        


   Results of Review ......................................................................................................           5


           AAI Reports Do Not Meet Documentation Standards for Investigations ..............                                         5

           EPA Does Not Review AAI Reports for Compliance with Federal Rules ............                                            7

           EPA Lacks Controls to Ensure AAI Requirements Are Met for ARRA Work........                                               7


   Conclusions ................................................................................................................       7        


   Recommendations .....................................................................................................              8        


   Agency Response and OIG Evaluation.....................................................................                            8        


   Status of Recommendations and Potential Monetary Benefits..............................                                           12    



Appendices 

   A       OSWER Response to Draft Report ...................................................................... 13 


   B       Distribution…......................................................................................................       19

Purpose
                 The purpose of this Office of Inspector General (OIG) review was to evaluate
                 how the U.S. Environmental Protection Agency (EPA) is ensuring that
                 Brownfields Assessment grantees adhere to all appropriate inquiries (AAI)
                 requirements. EPA Brownfields Assessment grantees must meet AAI
                 requirements to comply with grant terms and conditions and federal regulations.
                 We sought to answer the question, “Are Brownfields grantees meeting EPA’s
                 AAI Rule requirements to investigate and disclose1 environmental conditions and
                 are purchasers/owners maintaining continuing obligations2 at brownfield
                 properties?”

                 Due to priority issues identified during the course of our review, we did not
                 complete an evaluation of continuing obligations at brownfields properties.
                 Therefore, those issues are not addressed in this report.

Background
                 Brownfields are real property, the expansion, redevelopment, or reuse of which
                 may be complicated by the presence or potential presence of a hazardous
                 substance, pollutant, or contaminant. EPA’s Brownfields Program awards grants
                 for the assessment and cleanup of these properties. Assessment grants provide
                 funding to inventory, characterize, assess, and conduct planning and community
                 involvement activities related to brownfields properties. AAI, also called
                 “environmental due diligence,” is the process of evaluating a property for
                 potential environmental contamination. AAIs also assess the potential liability for
                 any contamination present at the property. Parties awarded federal Brownfields
                 Assessment grants must conduct AAIs in accordance with federal law and
                 regulations to obtain certain landowner liability protections under Superfund.3
                 From 2002 through 2009, EPA’s Brownfields Program awarded 1,354 assessment
                 grants totaling $306.8 million. This total includes $25.8 million in American
                 Recovery and Reinvestment Act of 2009 (ARRA) funds.

                 In November 2006, EPA put into effect final regulations, or a rule, establishing
                 the federal requirements for conducting and documenting proper AAI
                 investigations. The AAI investigation seeks to identify potential environmental
                 conditions or problems at a property. It must involve reviews of historical records,
                 interviews with persons knowledgeable of the property, and visual inspection of a
                 property.



1
  Title 40 Code of Federal Regulations section 312.21(c)(1) requires environmental professionals to document, “An
opinion as to whether the inquiry has identified conditions indicative of releases or threatened releases of
hazardous substances.” The OIG considers this a disclosure of environmental conditions, where they exist.
2
  AAI reports do not speak to continuing obligations. This is because it applies after a property is purchased.
3
  Specifically, the Comprehensive Environmental Response, Compensation, and Liability Act, or CERCLA.


11-P-0107                                                                                                     1
            Grantees are required to ensure that the investigation is performed in accordance
            with EPA’s final rule. They may follow the standards set forth in ASTM
            International’s E1527-05 Standard Practice for Environmental Site Assessments:
            Phase I Environmental Site Assessment Process. This ASTM standard and EPA’s
            final rule both require that an environmental professional (EP) must conduct or
            oversee the AAI investigation. Grantees hire EPs to undertake the investigations.
            To ensure the quality of all appropriate inquiries, the final rule includes specific
            educational and experience requirements for an EP. EPA’s final rule states that
            the EP must document results in a written report and include:

                   •	 An opinion statement regarding the identification of conditions
                      indicative of releases or threatened releases of hazardous substances
                      on, at, or to the subject property
                   •	 An identification of data gaps that may affect the ability of the EP to
                      identify conditions indicative of releases or threatened releases of
                      hazardous substances on, at, or to the subject property, as well as
                      significance of the gaps
                   •	 Qualifications and signature of the EP, including qualifications
                      statement

            EPA’s Office of Brownfields and Land Revitalization (OBLR) is the national
            program office and manager of the Brownfields Program. OBLR is responsible
            for awarding grants to qualified entities through a competitive process and
            establishing national guidance for the program. Within each of the 10 EPA
            regional offices, EPA Brownfields project officers (POs) have responsibility for
            oversight and monitoring compliance with Brownfields grant terms and
            conditions awarded to grantees in their jurisdictions.

Noteworthy Achievements
            OBLR has provided states, federal agencies, local governments, nonprofits,
            industry groups, and the private sector with AAI and continuing obligations
            training. In November 2009, EPA provided training opportunities at the 2009
            National Brownfields Conference. Specific training sessions at the conference
            included “CERCLA Liability and All Appropriate Inquiry Training for Tribes”
            and “Liability Protection: Progress Toward an ASTM Continuing Obligations
            Standard.” OBLR has issued several publicly available fact sheets on AAI
            requirements. In March 2010, OBLR held a listening session on the AAI rule so
            that OBLR could listen to the views of stakeholders and the general public on the
            current AAI standards and practices.




11-P-0107                                                                                    2
Scope and Methodology
            We conducted our review in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the
            evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions. We believe that the evidence obtained provides
            a reasonable basis for our findings and conclusions based on our evaluation
            objectives. We performed our review from January through October 2010.

            We conducted our review in EPA headquarters, Regions 1 and 5, and two U.S.
            territories located in EPA Region 2 (Puerto Rico) and Region 9 (Commonwealth
            of the Northern Mariana Islands, or CNMI). We selected Regions 1 and 5 because
            of the high dollar value of grants awarded to these regions from fiscal years 2002
            through 2008. These regions also had a high number of grants per PO (high
            workload), which we believed could impact grant oversight opportunities. We
            selected the territory locations based on the potential for lower levels of EPA
            grant oversight and limited access to resources as compared with locations within
            the continental United States. We were unable to review AAI reports from Puerto
            Rico (Region 2) because its grantees had not yet completed any AAI reports.

            The scope of AAI reports we reviewed included only those that were to adhere to
            EPA’s final November 2006 requirements. From Regions 1, 5, and 9 (CNMI), we
            selected a total of eight community-wide Assessment grants. Community-wide
            Assessment grants address more than one site within a community. Seven grants
            from Regions 1 and 5 were randomly selected, and one grant from CNMI was
            judgmentally selected. These eight Assessment grants represented $2.14 million
            in grant awards and generated 35 AAI reports. Table 1 shows the regional
            distribution of grants and AAI reports we selected and reviewed.

            Table 1: Regional distribution of reports and grants OIG reviewed
                                    No. of AAI reports    No. of grants
             Region 1                       16                  5
             Region 5                       10                  2
             Region 9                        9                  1
             Total                          35                  8
            Source: OIG analysis.

            We visited Regions 1 and 5 and interviewed POs and Brownfields Program
            managers about EPA’s management controls and their grants management. We
            also interviewed the PO and manager responsible for the Region 9 CNMI grant.
            We reviewed EPA’s Guidance to Recipients for Implementing the Brownfields
            Assessment, Revolving Loan Fund (RLF) & RLF Supplemental, Cleanup and Job
            Training Cooperative Agreements Awarded Under the American Recovery and
            Reinvestment Act of 2009 and interviewed POs in Regions 1 and 5 to identify
            EPA’s management controls for AAI reports funded by ARRA grants.



11-P-0107                                                                                   3
                 All of the selected AAI reports stated that the EPs conducted the AAI
                 investigation in compliance with the ASTM standard, which is allowed under
                 EPA rules. We reviewed the reports for the following AAI final rule and ASTM4
                 standard documentation requirements:

                         1. EP Qualification Statement [requirement of FINAL RULE Title 40
                         Code of Federal Regulations (CFR) section 312.21(d)]

                         As required by Title 40 CFR section 312.21(d), the report shall include the
                         following statements of the EP(s) responsible for conducting the AAI
                         assessment and preparation of the report.

                                  [I, We] declare that, to the best of [my, our] professional
                                  knowledge and belief, [I, we] meet the definition of Environmental
                                  Professional as defined in §312.10 of this part. [I, We] have the
                                  specific qualifications based on education, training, and experience
                                  to assess a property of the nature, history, and setting of the subject
                                  property. [I, We] have developed and performed the all appropriate
                                  inquiries in conformance with the standards and practices set forth
                                  in 40 CFR Part 312.

                         2. EP Signature(s) [requirement of FINAL RULE Title 40 CFR section
                         312.21(d)]

                         The EP(s) responsible for the AAI assessment shall sign the report.

                         3. EP Statement on Data Gaps [requirement of FINAL RULE Title 40
                         CFR section 312.21(c)(2)]

                         The report shall identify and comment on significant data gaps5 that affect
                         the ability of the EP to identify conditions indicative of release or
                         threatened release.

                         4. EP Opinion Statement (in Conclusion section) [requirement of ASTM
                         E1527-05 sections 12.8, 12.8.1, 12.8.2]

                         The report shall include a conclusion section that summarizes all
                         recognized environmental conditions connected with the property. The
                         report shall include one of the following statements:



4
  Compliance with ASTM requirements is included because all 35 reports the OIG reviewed sought to comply with
the AAI requirements using the ASTM standard. The AAI final rule does not address whether the AAI rule or the
ASTM standard provide the compliance standard, and EPA has not issued a legal opinion on this matter.
5
  In 2007 and 2009, Brownfields Program staff provided AAI training information stating, “no discussion of data
gaps” was a “common problem” in 2009 and “deficiency” in AAI reports in 2007. The 2009 training information
also provided that under the final rule, “documentation of data gaps is no longer discretionary.”


11-P-0107                                                                                                   4
                           We have performed a Phase I Environmental Site Assessment in
                           conformance with the scope and limitations of ASTM Practice E
                           1527 of [insert address or legal description], the property. Any
                           exceptions to, or deletions from, this practice are described in
                           Section [ ] of this report. This assessment has revealed no evidence
                           of recognized environmental conditions in connection with the
                           property.

                                                or

                           We have performed a Phase I Environmental Site Assessment in
                           conformance with the scope and limitations of ASTM Practice E
                           1527 of [insert address or legal description], the property. Any
                           exceptions to, or deletions from, this practice are described in
                           Section [ ] of this report. This assessment has revealed no evidence
                           of recognized environmental conditions in connection with the
                           property except for the following: (list).

Results of Review
            EPA does not review AAI reports to assure the reports meet EPA’s AAI final rule
            requirements. None of the 35 AAI reports we reviewed, generated from $2.14
            million in grant awards, contained all the required elements to document that AAI
            was done in compliance with federal requirements. This occurred because the
            Agency does not have management controls requiring EPA POs to conduct
            oversight of AAI reports to assure they meet federal documentation requirements.
            The POs that we interviewed do not conduct oversight of AAI reports to assure
            compliance with federal requirements. EPA relies on EPs to self-certify
            compliance with federal AAI requirements. Missing controls for AAI report
            review also apply to EPA oversight of Brownfields grants funded by ARRA.
            According to EPA, grantees who do not comply with federal requirements for
            proper AAI investigations may be ineligible for future grants. Improper AAI
            investigations create risk that the environmental conditions of a property have not
            been properly or adequately assessed. Consequently, decisions about uses of
            redeveloped or reused brownfields properties may be based on improper
            assessments. Ultimately, threats to human health and the environment could go
            unrecognized.

            AAI Reports Do Not Meet Documentation Standards for
            Investigations

            None of the 35 AAI reports we reviewed contained all the required elements for
            documenting and reporting that AAI investigations meet federal requirements.
            There was variability in the level of noncompliance in individual reports.
            However, all the reports were noncompliant with some aspect of the requirements
            for proper documentation of an AAI investigation. Specifically:


11-P-0107                                                                                   5
                   1. EP Qualifications Statement: All 35 reports failed to include the
                   required statement to certify the qualifications of the EP. 16 of the 35
                   reports (46 percent) included deviations from the required qualifications
                   statement. Among the 16, either no statement was included, or the
                   required statement was abbreviated or modified. The remaining 19 reports
                   (54 percent) generally contained all three required sentences of the
                   statement, but included wording that was inconsistent. For example,
                   several statements used the terms “we” and “our” when only one EP
                   signed the qualifications statement.

                   2. EP Signature(s): Nine of the 35 reports (26 percent) were not signed
                   by the responsible EP.

                   3. EP Statement on Data Gaps: Seven of the 35 reports (20 percent) did
                   not include a statement on data gaps.

                   4. EP Opinion Statement (in Conclusion section): All 35 reports failed
                   to include the required EP opinion statement in the Conclusion section. Of
                   this number, 33 reports, or 94 percent, included deviations from the
                   required opinion statement, e.g., missing sentences, abbreviated or
                   modified sentences, replacing “I” with the name of the environmental
                   firm, or stating “general” conformance. The remaining two reports
                   generally contained all parts of the statement, but also included some
                   minor deviations, e.g., rewording or additional wording and omissions that
                   do not alter the meaning of the statement.

            Modifications and departures from use of required language for EP qualification
            statements and signatures fails to assure that a qualified EP conducted or oversaw
            the site investigation as required. The discrepancies in the opinion statements and
            missing statements on data gaps encountered in the investigation fail to assure that
            the work performed was sufficient to identify environmental conditions at the site.
            These discrepancies introduce a risk that potential threats to human health and the
            environment may fail to be recognized.

            If conditions merit, EPA can take back funds from noncompliant grantees. We
            question the value of the reports generated from the $2.14 million in federal grant
            awards. EPA may, under Title 40 CFR section 31.43(a)(1)-(3), remedy materially
            noncompliant cooperative agreement terms and conditions by any or all of the
            following:

                   •   Temporarily withholding payments
                   •   Disallowing all or part of cost activities
                   •   Initiating a whole or partial suspension or termination

            EPA may also, under CERCLA section 104(k)(7)(C) and the cooperative
            agreement terms and conditions, take such actions as:



11-P-0107                                                                                   6
                           •    Terminating the grant
                           •    Requiring the grantee to repay funds received
                           •    Pursuing other legal remedies available to EPA

                   EPA Does Not Review AAI Reports for Compliance with Federal
                   Rules

                   EPA does not review AAI reports for requirements, and it has no requirements or
                   guidance for conducting oversight of AAI reports. EPA relies on self-certification
                   by an EP to ensure compliance, consistent with the intent and requirements of the
                   AAI rule. The rule requires that AAI reports include a declaration (signed by the
                   EP) that activities performed by, or under the supervision of, the EP were
                   performed in conformance with the rule. EPA’s AAI rule does not require that
                   EPA POs review AAI reports. OBLR’s Assessment Grant Administrative Manual
                   does not describe duties for POs in AAI report review. An OBLR manager stated,
                   “as a general rule, nobody” reads through the AAI reports. This manager also
                   stated that OBLR is not responsible for oversight of AAI reports. POs stated that
                   they do not review AAI reports for requirements because such reviews are not
                   their responsibility, but rather are the responsibility of either the states or EPs.
                   The results of our review demonstrate shortcomings in EPA’s approach of relying
                   on self-certification to ensure that federal requirements for AAI investigations are
                   met and assuming that EPs are adhering to their responsibilities.

                   EPA Lacks Controls to Ensure AAI Requirements Are Met for ARRA
                   Work

                   In fiscal year 2009, EPA’s Brownfields Program awarded 89 Assessment grants,
                   totaling $25.8 million, from ARRA funds.6 EPA has issued guidance and
                   implemented management controls for ARRA funds. ARRA guidance directs that
                   funds are spent and accounted for properly and efficiently, and that some results
                   and outcomes are timely and accurately documented. EPA’s Brownfields
                   Recovery Act guidance requires additional reporting steps for ARRA grantees.
                   Steps include detailing progress on interim measures such as reporting on when
                   assessments start and loan/subgrants are signed. However, EPA does not have
                   guidance, and has not implemented new controls, to assure that deliverables from
                   ARRA-funded Brownfields grants, such as AAI reports, adhere to federal
                   requirements. The shortcomings we found in the non-ARRA AAI reports we
                   reviewed could extend to the AAI reports on ARRA-funded Brownfields grants.

Conclusions
                   EPA’s lack of oversight and reliance on EPs’ self-certifications creates risk that
                   AAI investigations not meeting federal requirements may go undetected by

6
    This information can be found at http://www.epa.gov/brownfields/grant_announce/recovact5509.pdf.


11-P-0107                                                                                              7
            Agency staff. Our findings demonstrate that a sample of AAI reports, generated
            from $2.14 million in federal grant awards, did not meet federal requirements for
            documenting that a proper AAI investigation was conducted. These instances of
            noncompliance went undetected. Noncompliant AAI investigations may result in
            future grant denials and possible government reimbursement. Improper AAI
            investigations introduce risk that the environmental conditions of a property have
            not been properly or adequately assessed. Consequently, decisions about
            appropriate uses of redeveloped or reused brownfields properties may be based on
            improper assessments. Ultimately, threats to human health and the environment
            could go unrecognized. EPA should properly account for and award federal grant
            funds to rule-abiding grantees to demonstrate its environmental protection
            priorities and values, and to promote compliance with federal grant requirements.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

                   1.	 Establish EPA accountability for rule-compliant AAI reports that are
                       funded by Brownfields Assessment grants, including ARRA-funded
                       AAI reports.

                   2. 	 Develop a plan to review post-final-rule AAI reports to determine the
                        reports’ compliance with AAI documentation requirements.

                   3. 	 Establish EPA criteria for disallowing federal costs for noncompliant
                        AAI reports produced under Brownfields Assessment grants and take
                        action to disallow costs as appropriate.

Agency Response and OIG Evaluation
            The Office of Solid Waste and Emergency Response (OSWER) provided Agency
            comments. The Agency’s comments included legal analysis provided by the
            Office of General Counsel (OGC). A summary of the legal comments was
            included in OSWER’s comments. We reviewed the Agency’s comments and
            made changes to the report, where appropriate. Appendix A provides the full text
            of OSWER’s comments and the OIG’s response. The OGC legal analysis is not
            included in the report because it was not designated for distribution outside of
            EPA. The Agency informed the OIG that it plans to issue the legal analysis in
            their 90-day response to the final report.

            OSWER’s response to OIG recommendations 1, 2, and 3 was incomplete.
            OSWER stated a “willingness to work” with the OIG in addressing the
            recommendations but did not provide corrective action plans and milestone
            dates. In its 90-day response to this report, OSWER needs to agree or disagree
            with recommendations and provide appropriate corrective action plans and



11-P-0107                                                                                    8
            estimated or actual milestone completion dates for recommendations 1, 2, and
            3. In a meeting prior to issuing this final report, we informed the Agency of
            our evaluation of its response and the additional information it needs to
            provide us in its 90-day response.

            In its comments, OSWER requested that the following sections of the report
            be deleted, modified, or clarified:

                   •	 OSWER requested that the OIG clarify that “self certification” by
                      an EP does not require EPs to certify the results of the AAI. We
                      did not make this change because our report does not state that EPs
                      certify the “results of the AAI investigation.” Rather, our finding
                      is that EPA relies on the self-certification of EPs to ensure
                      compliance with federal AAI requirements.

                   •	 OSWER requested that we remove references in our report to “a
                      disclosure requirement regarding environmental conditions at a site”
                      and “continuing obligations.” OSWER stated that, “there is nothing in
                      the AAI rule that requires disclosure of environmental conditions of a
                      property.” First, our report does not state a requirement to disclose
                      “environmental conditions of a property.” Second, our report contains
                      one reference to “disclose” in this context. Specifically, in stating the
                      purpose of our work (see OIG report page 1), we ask, “Are
                      Brownfields grantees meeting EPA’s AAI Rule requirements to
                      investigate and disclose environmental conditions and are
                      purchasers/owners maintaining continuing obligations at brownfield
                      properties?” Also, we note that Title 40 CFR section 312.1(d)
                      “Disclosure obligations,” states, “None of the requirements of this part
                      limits or expands disclosure obligations under any federal, state, tribal,
                      or local law, including the requirements under CERCLA sections
                      101(40)(c) and 107(q)(1)(A)(vii) requiring persons, including
                      environmental professionals, to provide all legally required notices
                      with respect to the discovery of releases of hazardous substances. It is
                      the obligation of each person, including environmental professionals,
                      conducting the inquiry to determine his or her respective disclosure
                      obligations under federal, state, tribal, and local law and to comply
                      with such disclosure requirements.” Also, Title 40 CFR section
                      312.21(c)(1) requires EPs to document, “An opinion as to whether the
                      inquiry has identified conditions indicative of releases or threatened
                      releases of hazardous substances.” This requirement for EPs to
                      document an opinion on environmental conditions can be a disclosure
                      of environmental conditions where they exist. We also disagree with
                      OSWER’s comment that we change OIG references to “continuing
                      obligations.” We are aware that continuing obligations are a separate
                      issue from AAI. Nothing in our report states otherwise. Further, the
                      OIG report states that the OIG did not evaluate continuing obligations



11-P-0107                                                                                   9
               issues. However, we clarified references to continuing obligations in
               the final report to avoid potential confusion.

            •	 OSWER requested that we revise our report to clarify that
               references to AAI reports including an assessment of potential
               liability for any contamination present at a site may not be
               applicable in all instances. The frequency with which potential
               liability assessments are included in AAI reports was not a focus
               of the OIG’s work. Therefore, we do not have independent
               information to support such a statement.

            •	 OSWER requested that the OIG report clarify that, in many
               instances, Brownfields Assessment grantees will not be purchasing
               or owning the subject property and, as such, liability protection as
               a bona fide prospective purchaser, an innocent landowner, or a
               contiguous property owner would not be applicable. The OIG’s
               work did not focus on how frequently liability protections would
               be needed for Brownfields grantees. Therefore, we do not have
               independent information to support such a statement.

            •	 OSWER also requested that we address our references to specific
               language being required for the EP opinion statements. OSWER’s
               concern is that specific language is not a requirement under EPA’s
               AAI final rule. All 35 AAI reports we reviewed sought to comply
               with the AAI requirements using the ASTM standard, which is
               allowed. The final rule does not address whether the AAI rule
               requirements or the ASTM standard serve as the compliance
               standard when a grantee has selected ASTM, and EPA has not
               issued a legal opinion on this matter. The OIG was diligent in
               clearly identifying AAI and ASTM standards used in evaluating
               the reports we reviewed and making the distinction between these
               standards in our draft report. In the final report, we added language
               to clarify why we evaluated the ASTM requirement.

            •	 OSWER also requested that we clarify that data gaps must only be
               addressed in AAI reports when the lack of information precludes
               the EP from reaching necessary conclusions regarding conditions
               indicative of releases or threatened releases. The specific reporting
               requirement related to data gaps is provided in Title 40 CFR
               section 312.21(c)(2) of the final rule, and requires EPs to identify
               data gaps. The OIG’s finding on data gaps is based on EPA
               Brownfields Program communications in 2007 and 2009 training
               information that “no discussion of data gaps” is a “common
               problem”(2009) and “deficiency”(2007) in AAI reports. The 2009
               training information also provided that under the final rule,
               “documentation of data gaps is no longer discretionary.” In our


11-P-0107                                                                              10
                       opinion, the Brownfields Program has communicated an
                       expectation that the data gaps requirement includes stating that
                       there were no data gaps when that is the case. We have clarified
                       this issue in our final report.

            Finally, EPA’s comments stated, “Unlike cleanup and remediation activity under
            Superfund, RCRA [Resource Conservation and Recovery Act] or emergency
            response authorities, EPA does not directly supervise assessment or cleanup
            activity funded under our Brownfields Cooperative Agreements. Rather, those
            activities are supervised under the appropriate State or Tribal Response Program,
            which would ensure that the activity is completed properly and is protective of
            human health and the environment.” Based on our work, we believe this statement
            could be wrongly interpreted to mean that State and/or Tribal Response Programs
            supervise AAI work. The information we obtained from EPA’s Brownfields
            Program staff shows that EPA regional Brownfields POs are responsible for
            verifying with the grantee that AAI rule was met.




11-P-0107                                                                                 11
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

     1        8     Establish EPA accountability for rule-compliant AAI      U       Assistant Administrator for
                    reports that are funded by Brownfields Assessment                     Solid Waste and
                    grants, including ARRA-funded AAI reports.                        Emergency Response

     2        8     Develop a plan to review post-final-rule AAI reports     U       Assistant Administrator for
                    to determine the reports’ compliance with AAI                         Solid Waste and
                    documentation requirements.                                       Emergency Response

     3        8     Establish EPA criteria for disallowing federal costs     U       Assistant Administrator for
                    for noncompliant AAI reports produced under                           Solid Waste and
                    Brownfields Assessment grants and take action to                  Emergency Response
                    disallow costs as appropriate.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0107                                                                                                                                        12
                                                                                     Appendix A


                  OSWER Response to Draft Report

MEMORANDUM

SUBJECT:       OIG Draft Evaluation Report: EPA Must Implement Controls to Ensure Proper
               Investigations are Conducted at Brownfields Sites

FROM:          Mathy Stanislaus
               Assistant Administrator

TO:            Arthur Elkins, Jr.
               Inspector General

       Thank you for the opportunity to review and comment on the draft Office of Inspector
General (OIG) report entitled “EPA Must Implement Controls to Ensure Proper Investigations
Are Conducted at Brownfields Sites.” We appreciate the Office of Inspector General’s efforts in
evaluating grantee compliance with certain requirements related to the conduct of All
Appropriate Inquiries (AAI), and we have appreciated the opportunities to discuss this with OIG.

      As was discussed during the recent meeting between our Offices, the Office of General
Counsel (OGC) has identified several aspects of the draft report that warrant further examination
by OIG, and I have attached their legal analysis of these issues.

OIG Response 1: The OGC legal analysis is not included in our report because it was not
designated for distribution outside of EPA.

If you or OIG legal counsel would like to discuss these, OGC has indicated its willingness to do
so. Similarly, we would appreciate the opportunity to discuss with you further the general
statements in the draft report regarding disallowing costs related to specific deficiencies in AAI
reports or documentation.

OIG Response 2: OIG staff met with Agency staff to discuss these comments and the OGC
analysis on January 10, 2011.

         We agree with the positions set forth in OGC’s memorandum, which help place the AAI
rule in to the proper context in relation to the nature of brownfields funded assessments and
cleanups. Unlike cleanup and remediation activity under Superfund, RCRA or emergency
response authorities, EPA does not directly supervise assessment or cleanup activity funded
under our Brownfields Cooperative Agreements. Rather, those activities are supervised under



11-P-0107                                                                                       13
the appropriate State or Tribal Response Program, which would ensure that the activity is
completed properly and is protective of human health and the environment

OIG Response 3: We disagree with the above paragraph as it applies to AAI investigations. The
information we obtained from EPA’s Brownfields Program staff shows that EPA regional
Brownfields POs are responsible for verifying with the grantee that AAI rule was met. If State
and Tribal Response Programs are to be supervising AAI activities, that is not a common
understanding in the Brownfields Program.

        As is set forth in the attached opinion, we recommend that the following sections of the
Report be deleted, modified or clarified: (1) The references to “self certification” by
environmental professionals should clarify that the AAI rule does not require the environmental
professional to certify the results of the AAI when signing the report. Rather, the environmental
profession must sign the report to document that the signatory meets the requirements of an
environmental professional, and that the activities performed were done in conformance with the
federal requirements. The environmental professional is not “certifying” the environmental
conditions at a property;

OIG Response 4: The Agency has mischaracterized the OIG statements pertaining to “self-
certification.” The OIG report does not state that EPs certify “the results of the AAI
investigation,” or the “environmental conditions of a property.” Rather, the OIG’s stated finding
is that EPA relies on the self-certification of EPs to ensure compliance with federal AAI
requirements. The OIG strives to communicate in plain language. In plain language, the
declarations that the AAI rule requires EPs to include and sign can also be considered self-
certifications. Specifically, Title 40 CFR section 312.21(d) states:

       The environmental professional must place the following statements in the written
       document identified in paragraph (c) of this section and sign the document:

               [I, We] declare that, to the best of [my, our] professional knowledge and belief, [I,
               we] meet the definition of Environmental Professional as defined in § 312.10 of
               this part.

               [I, We] have the specific qualifications based on education, training, and
               experience to assess a property of the nature, history, and setting of the subject
               property. [I, We] have developed and performed the all appropriate inquiries in
               conformance with the standards and practices set forth in 40 CFR Part 312.

(2) references to a disclosure requirement regarding environmental conditions at a site. There is
nothing in the AAI rule that requires disclosure of environmental conditions of a property;




11-P-0107                                                                                           14
OIG Response 5: Our report does not state a requirement to disclose “environmental conditions
of a property.” In addition, our report contains one reference to “disclose” in this context.
Specifically, in disclosing the purpose of our work (see OIG report page 1), we ask, “Are
Brownfields grantees meeting EPA’s AAI Rule requirements to investigate and disclose
environmental conditions and are purchasers/owners maintaining continuing obligations at
brownfield properties?” Title 40 CFR section 312.21(c)(1) requires EPs to document, “An
opinion as to whether the inquiry has identified conditions indicative of releases or threatened
releases of hazardous substances.” We believe this requirement for EPs to document an opinion
on environmental conditions can be a disclosure of environmental conditions, where they exist.

Also, Title 40 CFR section 312.1(d) “Disclosure obligations,” states, “None of the requirements
of this part limits or expands disclosure obligations under any federal, state, tribal, or local law,
including the requirements under CERCLA sections 101(40)(c) and 107(q)(1)(A)(vii) requiring
persons, including environmental professionals, to provide all legally required notices with
respect to the discovery of releases of hazardous substances. It is the obligation of each person,
including environmental professionals, conducting the inquiry to determine his or her respective
disclosure obligations under federal, state, tribal, and local law and to comply with such
disclosure requirements.”

(3) references to the necessity for AAI reports to address “continuing obligations” at brownfield
sites. “Continuing obligations” is a phrase used by EPA to describe required activities to
maintain liability protection, and an AAI report would not speak to this;

OIG Response 6: The OIG is aware that the issue of continuing obligations is separate from
AAI. Nothing in the OIG report states otherwise. When the OIG announced its work in this area,
we had plans to look at how continuing obligations requirements were being met. However, the
OIG stated in its draft report to OSWER, “Due to priority issues identified during the course of
our review, we did not complete an evaluation of continuing obligations at brownfield properties.
Therefore, those issues are not addressed in this report.” This statement remains in this final
report. We also added clarifying references to continuing obligations in the final report to avoid
potential confusion.

(4) Clarify that references to AAI reports including an assessment of potential liability for any
contamination present at a site may not be applicable in all instances. AAI reports can be
relevant to liability, because they provide an assessment of site conditions, including the
presence of contamination. The AAI rule does not, however, require those conducting AAI to
undertake analysis or make determinations regarding the liability of any party;

OIG Response 7: The frequency with which potential liability assessments are included in AAI
reports was not a focus of the OIG’s work. Therefore we do not have independent information to
support such a statement.




11-P-0107                                                                                           15
(5) clarification that, in many instances, brownfields assessment grantees will not be purchasing
or owning the subject property and, as such, liability protection as a bona fide prospective
purchaser, an innocent landowner, or a contiguous property owner would not be applicable;

OIG Response 8: The OIG’s work did not focus on how frequently liability protections would
be needed for Brownfields grantees. Therefore, we do not have independent information to
support such a statement.

(6) references to specific language being required for the environmental professional opinion
statement. There is not a requirement that prescribed wording or language be used in the opinion
statement;

OIG Response 9: This comment reflects a concern associated with the fact that the AAI rule
does not require the opinion statement requirement per the ASTM standard.

The OIG’s report clearly states that the specific wording used in our evaluation of the opinion
statements is an ASTM requirement. The AAI regulation, which allows use of either AAI or
ASTM standards (see Title 40 CFR section 312.11, “References”), states:

       The following industry standards may be used to comply with the requirements set
       forthin §§ 312.23 through 312.31:
                 (a) The procedures of ASTM International Standard E1527-05 entitled
                 “Standard Practice for Environmental Site Assessments: Phase I Environmental
                 Site Assessment Process.”

All 35 reports that the OIG reviewed sought to comply with the AAI requirements using the
ASTM standard. The final rule does not address whether the AAI rule or the ASTM standard
provides the compliance standard, and EPA has not issued a legal opinion on this matter. The
OIG clearly designated in its draft and final reports the items that specifically pertain to the
AAI and ASTM standard. The OIG added additional clarification language on why the
ASTM standard requirement was evaluated in the final report.

(7) clarification that “data gaps” must only be addressed when the lack of information precludes
the environmental professional from reaching necessary conclusions regarding conditions
indicative of releases or threatened releases. If conclusions can be reached in the absence of
data, the AAI report would not need to address these data gaps.




11-P-0107                                                                                          16
OIG Response 10: The specific reporting requirement related to data gaps is provided in Title 40
CFR section 312.21(c)(2) of the final rule. Specifically:

       II. An identification of data gaps (as defined in §312.10) in the information developed as
       part of the inquiry that affect the ability of the environmental professional to identify
       conditions indicative of releases or threatened releases of hazardous substances…on, at,
       in, or to the subject property and, comments regarding the significance of these data gaps.

Further, EPA’s Brownfields Program communicated in 2007 and 2009 training information that
“no discussion of data gaps” is a “common problem” in 2009 and “deficiency” in AAI reports in
2007. The 2009 training information also provided that under the final rule, “documentation of
data gaps is no longer discretionary.” In our opinion, this represents an EPA interpretation that
the data gaps requirement includes stating that there were no data gaps when that is the case. We
have clarified this issue in the final report.

         Additionally, the draft report recommended that we “establish EPA criteria for
disallowing federal costs for noncompliant AAI reports produced under Brownfields site
assessment grants and take action to disallow cost as appropriate." While OSWER does not
want to suggest to the public that failure to meet every technical requirement of AAI might
require that costs be disallowed, we agree that we should work with OIG to establish appropriate
criteria, to alert grantees to potential bases for disallowance of costs. We look forward to
working with your staff regarding this recommendation.

OIG Response 11: In its 90-day response, OSWER needs to provide corrective actions plan
and estimated or actual milestone completion dates for OIG recommendation 3.

        Finally, the draft report identified deficiencies in the consistency and completeness of
some of the documentation reviewed in the Regions’ project files. In particular, the report
expresses a concern that some AAI reports do not include a signature of a qualified
Environmental Professional, and may not include the required statements regarding the
qualifications of the person signing the report or the stipulation that the AAI investigation was
conducted in compliance with the requirements established under CERCLA and included in the
AAI final rule. In response to these findings, OBLR will develop and distribute, and conduct
appropriate outreach and training, to Brownfields Assessment Grantees and to Regional
Brownfields program staff additional guidance related to the rule’s documentation requirements,
and we will work with your Office on the specifics of this corrective action.

OIG Response 12: OSWER has not clearly responded to OIG recommendations 1 and 2. In
its 90-day response, OSWER needs to state concurrence/nonconcurrence with these
recommendations and provide a corrective action plan, including estimated or actual
milestone completion dates for these recommendations.




11-P-0107                                                                                     17
        Again, thank you for the opportunity to provide our comments and to transmit the
Office of General Counsel’s comments and input. We remain available to discuss these
items further, and to develop appropriate action items as noted above.




11-P-0107                                                                                  18
                                                                              Appendix B

                                   Distribution
Office of the Administrator 

Assistant Administrator for Solid Waste and Emergency Response 

Director, Office of Brownfields and Land Revitalization 

Regional Administrator, Region 1 

Regional Administrator, Region 2 

Regional Administrator, Region 5 

Regional Administrator, Region 9 

Agency Followup Official (the CFO) 

Agency Followup Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Audit Followup Coordinator, Office of Solid Waste and Emergency Response 

Audit Followup Coordinator, Region 1 

Audit Followup Coordinator, Region 2 

Audit Followup Coordinator, Region 5 

Audit Followup Coordinator, Region 9 





11-P-0107                                                                            19
